                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street N.E.
                                                       Washington, DC 20002



.
                      Former Amtrak Employee Stole GSA Fuel Cards
                                 Case Number 09-009
                                     May 4, 2010

A cooperating witness reported that a former Amtrak employee stole GSA fuel cards and used
them to purchase fuel for other people. Agents worked with GSA OIG to substantiate the
allegation through review of documents and interviews. The former employee pled guilty to
theft of government property. The former employee was sentenced to 3 years probation with a
special condition to reside in a half way house for 10 months. Restitution to Amtrak of $17,000
was ordered by the court.
